In The

Supreme Court of the United States
ROCKWOOD CASUALTY INSURANCE
)
COMPANY, insurer of Hidden Splendor resources, Inc )
Petitioner,
)
) NO. 19-23
v.
)
)
TONY KOURIANOS;
)
DIRECTOR OF WORKERS’
)
COMPENSATION PROGRAMS,
)
UNITED STATES DEPARTMENT OF LABOR
)
Respondents.
)

MOTION FOR ATTORNEY’S FEES
Comes now Attorney Victoria S. Herman, Counsel for Tony Kourianos, and
in accordance with 33 U.S.C. §928, as implemented by the regulations of the
Department of Labor at 20 C.F.R. §§ 725.366 and 802.203, moves this Court for
the award of representative’s fees in the amount of $22,106.25 for my services
rendered while this case was before The Supreme Court of the United States. We
are also requesting reimbursement for cost accumulated during the course of the
claim in the amount of $1,531.53. The receipts are attached as “Exhibit A”. We
have not requested or received any fee for the services rendered to the miner in any
claim for pneumoconiosis (black lung) benefits before any State or other Federal
Agency.
Itemized time sheets are attached hereto as “Exhibit B” identifying the
timekeeper, the task, and the time spent on each task. I am requesting $375 per
hour for Joseph E. Wolfe, Esquire (0.25 hrs. @ $375.00/hr. = $93.75), $200 per
hour for Brad A. Austin, Esquire (6.25 hrs. @ $200.00/hr. = $1,250.00), $200 per

hour for Victoria S. Herman, Esquire (102.25 hrs. @ $200.00/hr. = $20,450.00),
$150 per hour for Rachel Wolfe, Esquire (1.75 hrs. @ $150.00/hr. = $262.50) and
$100 per hour for legal assistants (0.5 hrs. @ $100.00/hr. = $50.00).
Due to the firm’s vastly increased case load and the expertise of the staff
involved in this highly specialized realm of litigation, our fees are increasing. The
hourly rates requested are reasonable considering the experience and qualifications
of the representatives, evidence of similar fees awarded in the past, and the rates
listed in The National Law Journal’s 2014 Survey of Law Firm Economics for the
South Atlantic region where our firm primarily practices. 1 (A copy of the ALM
Legal Intelligence survey is attached as “Exhibit C”.) In the survey (rates are
based on 2013 data) Altman & Weil found that the hourly rates for attorneys in the
South Atlantic region have an average of $426 and a median of $425 for attorneys
with 31 or more years of experience, $206 and $195 for attorneys with 2 to 3 years
of experience and $205 to $190 for attorneys with under 2 years experience.
As support for the hourly rates requested with this motion, we have attached
a list of cases (“Exhibit D”) in which the timekeepers listed have received our new
rates or have received increased rates in black lung claims (see #1-65); further we
have, attached a list of older cases where the timekeepers listed have received our
pervious rates in black lung claims (see #66-88). Additionally, we have included
on this list the time duration for these cases. A review of the list clearly shows
Attorney Wolfe has received fee awards of $300 per hour for more than ten years.
In fact, the Benefits Review Board approved a fee award of $400 per hour for Mr.
Wolfe’s work during February 2005 through January 2007 and he has received
$300 per hour for time as early as 1998. Most recently Attorneys Wolfe and
Austin have received increased hourly rates for a number of black lung cases. For
1

The National Law Journal’s 2014 Survey of Law Firm Economics provides
“evidence of the market rate, but [standing alone does] not set the rate.” B
& G Min., Inc. v. Director, OWCP[Bentley], 522 F.3d 657, 644 (6th Cir. 2008)

example in Nelva Hall v. Golden Oak Mining Company & Dir., OWCP, 2011BLA-05151 and 2015-BLA-05876 (Nov. 2, 2017)2:
Administrative Law Judge Morris D. Davis cited Dicecca v. Battelle
Memorial Institute, BRB No. 13-0378 (Mar. 11, 2015) (order), and
acknowledged a method to calculate new hourly rates from outdated
hourly rates. In this case, the Board used the Department of Labor’s
Division of Longshore and Harbor Workers’ Compensation National
Average Weekly Wages table to amend hourly rates to account for
inflation. If this table is used for the $300.00 per hour rate that was
equitable for work performed in 2007, the present hourly rate would
equal $411.20. Moreover, the Department of Labor’s Bureau of Labor
Statistic Consumer Price Index (CPI) Calculator was also recognized
to modify the outdated hourly rates. This calculator would increase
the dated hourly rate of $300.00 to a current rate of $365.81. Taking
all these factors in account, Judge Morris found that $375.00 per hour
was a reasonable hourly rate for the work performed. (“Exhibit E”)
We also believe that our hourly rates are reasonable bearing in mind the risk
of loss associated with the Federal black lung practice, and the extreme delay in
payment for the successful prosecution of a claim.3 Ninety-nine percent of our
firm’s work is performed on a contingency basis, but it is within this Court’s
discretion to consider this evidence when arriving at reasonable hourly rates. See
Gosnell, 2013 WL 3929100, Bentley, 522 F.3d 657, and Cox, 602 F.3d 276.
Attached to this Motion are examples of the fees (2012 and 2013) that have
been charged by Jackson Kelly, PLLC, and Greenberg Traurig, LLP. (“Exhibit F”,
“Exhibit G” and “Exhibit H”). This evidence shows that our hourly rates are in
line with those charged by attorneys representing the coal companies, and
2

Claims counsel is enclosing a copy of this decision for convenience (Exhibit
G).
3 At this time, “[t]here are few financial incentives for lawyers to take
black lung claimants’ cases. . . According to DOL officials, attorneys are
not inclined to take claimants’ cases due to a low probability of success.”
U.S. Gov’t Accountability Office, GAO-10-7, Black Lung Benefits Program:
Administrative and Structural Changes Could Improve Miners’ Ability to Pursue
Claims, 26 (2009). located at http://www.gao.gov/assets/300/297807.pdf

claimants. We would note that the attorneys’ representing coal companies do not
receive fees on a contingent basis, and it is highly unlikely that they experience the
extreme delay in payment that miners’ attorneys face.
The total number of hours billed in this case is reasonable considering the
issues raised by Petitioner.
Attorney Joseph E. Wolfe has over 38 years of experience representing
clients from Virginia, West Virginia, Kentucky, Tennessee, North Carolina, South
Carolina, Utah, Missouri, Florida, Pennsylvania, Michigan, Arkansas, Ohio, Texas,
New Mexico and Indiana.

He is a 1975 graduate of the University of Virginia

Law School. He was admitted in 1975 to the Virginia and United States District
Court and the Western District Court of Virginia. In 1976 he was admitted to the
United States Court of Appeals and the United States Fourth Court of Appeals. He
was also admitted to the United States Supreme Court, the United Stated District
Court for the Eastern District of Tennessee. The Martindale-Hubbell ratings
indicate that Attorney Wolfe has high to very high legal ability and very high
ethical standards.
Attorney Wolfe is the Vice-Chairman, Board of Trustees for the
Appalachian School of Law. He was a member of the Board of Visitors for the
University of Virginia, 1968-2002. He has been an adjunct faculty member at
Mountain Empire Community College and at the Appalachian School of Law.
Most recently, Attorney Wolfe attended a Seminar on Black Lung sponsored
by the Appalachian School of Law in Abingdon, Virginia and two days attendance
at the West Virginia clinic seminar at Pipestem State Park in Pipestem, West
Virginia. Attorney Wolfe also attended the 2014 National Coalition Black Lung &
Respiratory Disease Clinics in Pittsburgh, Pennsylvania. In addition, he has
presented in past seminars sponsored by the Black Lung Coalition.

Attorney Brad Anthony Austin is a licensed attorney in the Commonwealth
of Virginia and has practiced law since 2013. Attorney Austin has practiced
exclusively in Black Lung litigation and has rapidly gained experience writing
arguments before the Office of Administrative Law Judges, Benefits Review
Board, and Fourth Circuit Court of Appeals. Mr. Austin has also represented
clients at hearings before the Office of Administrative Law Judges and has gained
valuable experience in depositions and in case preparation. Mr. Austin is a 2006
graduate of the University of Virginia’s College at Wise where he majored in
History and Minored in English and Political Science. Mr. Austin has written
approximately 400 briefs before the Office of Administrative Law Judges and
Benefits Review Board and has drafted arguments before the Fourth Circuit Court
of Appeals.

Mr. Austin has also attended multiple black lung conferences

including: the 2013 National Coalition of Black Lung and Respiratory Disease
Clinics in Billings, Montana; the 2014 National Coalition of Black Lung and
Respiratory Disease Clinics in Pittsburgh, Pennsylvania; the Annual Black Lung
Conference sponsored by the West Virginia Association of Black Lung Clinics; the
West Virginia Black Lung Clinics Program in Pipestem, West Virginia; the
Kentucky CLE black lung program in Whitesburg, Kentucky; the Norton
Community Hospital Black Lung Seminar; and the 2017 Climbing to Conquer
Black Lung Conference in Salt Lake City, Utah.
Attorney Victoria S. Herman is a licensed attorney in the State of Tennessee
and has practiced law since 2014. Ms. Herman is a 2005 graduate of Walters State
Community College with a degree in business and a 2007 graduate of Middle
Tennessee State University with a degree in history with an emphasis in medieval
history. While completing these undergraduate degrees Attorney Herman was
recognized on each schools Dean’s List and/or President’s List. She is a 2014
graduate of the Appalachian School of Law with a certificate in Natural Resources

Law. Attorney Herman took the Tennessee Bar in July 2014 and was admitted to
the Tennessee State Bar in October 2014. She has practiced in Black Lung
litigation and has gained experience helping to write arguments before the Office
of Administrative Law Judges, Benefits Review Board, and Fourth Circuit Court of
Appeals. In addition to assisting in the completion of numerous briefs, Attorney
Herman has attended the Norton Community Hospital Black Lung Seminar in
2014. She also, attended the 2017 Climbing to Conquer Black Lung Conference in
Salt Lake City, Utah. She has worked for our firm since October 2014.
Attorney M. Rachel Wolfe is a full-time attorney with the law firm of Wolfe
Williams & Reynolds starting in June of 2015. Ms. Wolfe is a 2010 graduate of
Transylvania University where she graduated with a B.A. in History. During the
summers of 2008, 2009, and 2010, she worked part time at the law office of Wolfe
Williams & Reynolds as a legal assistant in the Black Lung Department. After
college graduation, she attended the Appalachian School where she graduated with
a Juris Doctor Degree in May of 2013. During the summer of 2011, Ms. Wolfe
interned for Chief Justice Cynthia Kinser of the Virginia Supreme Court, followed
by another internship at the 30th Judicial Circuit Court. During the summer of
2012, she worked as a law clerk for Wolfe Williams & Reynolds in the Black Lung
Department where she was able to attend the 2012 Black Lung Conference hosted
by the West Virginia Black Lung Clinics Program in Pipestem, West Virginia.
Following law school graduation, she sat for the Virginia Bar Exam in the summer
of 2013 and was sworn into the Virginia State Bar on December 4, 2013. From
August of 2013 to June of 2015, she had the privilege to law clerk for the
Honorable Chadwick S. Dotson, the presiding Judge of Wise County Circuit Court.
During her clerkship with the Wise County Circuit Court, she would work part
time with Wolfe Williams & Reynolds solely on federal black lung cases during
weekends and holidays. In September of 2014, she attended the National Coalition

Black Lung & Respiratory Disease Clinics, Inc. Conference in Pittsburgh,
Pennsylvania. She also attended the National Conference of the United Mine
Workers of America in Las Vegas, Nevada in July of 2015. Most recently she
attended the 2017 Climbing to Conquer Black Lung Conference in Salt Lake City,
Utah.
Since June of 2015, she has been engaged in full time practice of law within
the Black Lung Department at Wolfe Williams & Reynolds. In this capacity, she
writes briefs to the Office of Administrative Law Judges and Benefits Review
Boards and handles hearings. She was sworn into the District Court for the
Western District of Virginia on July 2, 2015.
Our firm represents clients over a very broad regional and national basis, and
our attorneys actively assist in furthering the education of black lung
representatives at conferences, and seminars. For example, Attorneys Wolfe and
Gilligan presented at a national black lung conference in Pigeon Forge, Tennessee
in September 2010 on a panel with medical experts on the medical and legal
aspects of Federal black lung. Attorney Gilligan presented on a similar panel at a
national conference in Albuquerque, New Mexico in August 2012.

Attorney

Gilligan also co-presented with attorneys from Jackson Kelly, PLLC in March
2013 at a continuing legal education seminar in Grundy, Virginia regarding legal
changes in Federal black lung.
The qualifications of our legal assistants are attached hereto as “Exhibit I”.
Based on the foregoing, Counsel for Tony Kourianos requests The Supreme
Court of the United States to grant this Motion for Attorney Fees.
Respectfully Submitted,

/s/ Victoria S. Herman
Victoria S. Herman

Certificate
I hereby certified that a true and correct copy of the foregoing Motion for
Attorney Fees has been mailed first class mail to:
Clerk, U.S. Supreme Court
Tony Kourianos [Personal address omitted for privacy]
On this the 20th day of February, 2020.
I certify that I electronically filed this Motion for Attorney’s Fees using the
Court’s CM/ECF system on this the 20th day of February 2020, to all registered
CM/ECF users.

/s/ Victoria S. Herman
Victoria S. Herman, Esq.

